App. 1
[ECF 84 entered on 06/08/2017]

UNITED STATES DISTRICT COURTDISTRICT OF
NEVADARENO, NEVADA
3:16-CV-0524-RC«P
VPC

SEIKO EPSON
CORPORATION, et al.,
Plaintiff,

MINUTES OF
PROCEEDINGS

vs.
INKSYSTEM LLC, et al.,

DATED: June 8, 2017

Defendant(s).
PRESENT: THE HONORABLE VALERIE P.
COOKE, U.S. MAGISTRATE JUDGE
Deputy Clerk:

Lisa Mann

Court Reporter:

FTR

Counsel for Plaintiff(s):

Annie Wang (By telephone)

Counsel for Defendant(s): Christopher Austin
PROCEEDINGS: CASE MANAGEMENT
CONFERENCE/MOTION
HEARING
2:02 p.m. Court convenes.
The Court inquires of Mr. Austin why
defendant Igor Bielov is not present in court, as he
was ordered by the Court to appear at all case
management conferences (ECF No. 70). Mr. Austin
advises he misunderstood the Court’s intention of

App. 2
[ECF 84 entered on 06/08/2017]

having Mr. Bielov present after comments made at
the settlement conference.
The Court further requires of Mr. Austin why
he did not file a case management report as ordered
by the Court (ECF No. 74). In addition, the Court
inquires of Mr. Austin why he did not file an
opposition to plaintiffs’ emergency motion to compel
and for sanctions (ECF No. 80).
Mr. Austin advises the Court that he did not
concur with the joint case management report as
proposed by plaintiffs’ counsel and did not have
adequate time to file an opposition to the motion. The
Court advises Mr. Austin instead of filing nothing at
all, the better practice would have been to either
obtain a stipulation from opposing counsel for
additional time or to file a motion with the Court
requesting an extension of time.
The Court directs the deputy court clerk to
provide a copy of the plaintiffs’ proposed order
granting plaintiffs’ emergency motion to compel (ECF
No. 80-31/ to Mr. Austin. The Court finds as follows:
1. Defendants shall provide supplemental responses
to plaintiffs’ interrogatories nos.1-6, 13-16,
without objection, by no later than 5:00 p.m* PT
on Friday, June 16,2017.
2. Defendants shall provide supplemental responses
to plaintiffs’ requests for production of documents

App. 3
[ECF 84 entered on 06/08/2017]

2-11, 14-18, 20-29, without objection, by no later
than 5:00p.m. PT on Friday, June 16, 2017*
3. Defendants shall provide revised designation of
their document production by no later than
Friday, June 16, 2017.
4. Defendants shall pay to plaintiffs, c/o J. Andrew
Coombs, Client Trust Account, the amount of
$5,554.79 by no later than Friday, June 16, 2017.
In addition to providing this written discovery
to plaintiffs’ counsel, Mr. Austin shall file a
supplemental case management report with the
written discovery attached and shall include a
declaration attesting to what he did to comply with
the Court’s order by no later than 5:00 p.m. PT on
Friday, June 16, 2017.
Therefore, the plaintiffs’ emergency motion to
compel and for sanctions (ECF No. 80) is GRANTED
in part and DENIED in part.
The Court advises counsel for plaintiffs if there
are any further issues regarding these discovery
responses as ordered by the Court, counsel for
plaintiffs have leave to file a report advising the Court
of such issues, they may renew their motion to compel
and for sanctions, and/or they have leave to file a
motion for any other relief they deem necessary. If Ms.
Wang files any additional motions for case ending
sanctions or re-files the motion to compel and for
sanctions (ECF No. 80), Ms. Wang is directed to

App. 4
[ECF 84 entered on 06/08/2017]

contact Mr. Austin to determine a briefing schedule as
the Court advises counsel it will hear any such motion
at the next case management conference set for July
14, 2017.
Ms. Wang advises the Court that Mr. Kravchuk
was not the person most knowledgeable as provided
by the defendants as the 30(b)(6) deponent. The Court
inquires of Mr. Austin and his clients as to the Rule
30(b)(6) deposition of co-defendant Andriy Kravchuk
on June 1-2, 2017, on behalf of defendants Inksystem
LLC and LuckyPrint LLC. The Court is advised that
the person most knowledgeable for both companies is
an individual named Andriy Ushakov, whose
whereabouts is unclear. One of the co-defendants said
he believes Mr. Ushakov resides in the Ukraine or
possibly Belarus. One of the co-defendants
communicates with Mr. Ushakov once or twice a
month. Therefore, the Court advises Ms. Wang that
plaintiffs have leave to file a motion for costs of that
deposition and any other fees associated with the
preparation for the deposition by no later than
-i n
on-i n
T7!_ •
*
With respect to the
£i\3X I.
J.O,
r riaay, eJT____
une
documents the defendants agreed to produce in
connection with the defendants’ 30(b)(6) deposition,
those documents shall also be produced to plaintiffs
by no later than 5:00 p.m. PT on Friday, June 16,
2017.
Ms. Wang advises the Court the current
deadline for the disclosure of initial experts is

App. 5
[ECF 84 entered on 06/08/2017]

tomorrow. The Court advises the parties it will not
require the plaintiffs to comply with this deadline.
Therefore, if defendants produce everything as
ordered by June 16, 2017, the new deadline for the
disclosure of initial experts is July 7, 2017, and the
disclosure of rebuttal experts is July 21,2017.
The Court advises counsel for the defendants
and the defendants present in court that all four
individual defendants shall be personally present for
the case management conferences set in this case and
that all defendants shall dress appropriately for court
appearances.
IT IS SO ORDERED.
2:56 p.m. Court adjourns.
DEBRA K. KEMPI, CLERK
By:

/s/
Lisa Mann, Deputy Clerk

App. 6
[ECF 88, entered on 6/19/2017]

UNITED STATES DISTRICT COURTDISTRICT OF
NEVADARENO, NEVADA
* * *

SEIKO EPSON
CORPORATION, et
al.,

3:16-CV-0524-RCJ-VPC

ORDER GRANTING
PLAINTIFFS’ MOTION
TO COMPEL AND FOR
Plaintiff,
SANCTIONS AGAINST
vs.
DEFENDANTS
INKSYSTEM LLC,
INKSYSTEM LLC, et
LUCKY PRINT LLC,
al.,
AND ANDRIY
Defendant(s). KRAVCHUCK

Plaintiffs Seiko Epson Corporation and Epson
America, Inc. (“plaintiffs”) having filed their motion to
compel and for sanctions (ECF No. 85) against
defendants InkSystem LLC, Lucky Print LLC, and
Andriy Kravchuk (“defendants”), and good cause
appearing, the court hereby GRANTS plaintiffs
motion (ECF No. 85) as follows:
1. Defendants shall pay to plaintiffs, do J. Andrew
Coombs, Client Trust Account, the amount of
$16,146.50 within seven (7) court days of the date
of this order;
2. Defendants shall be precluded from seeking any
offset as to damages using documents or
information not disclosed or produced within three
(3) court days of the date of this order;

App. 7
[EOF 88, entered on 6/19/2017]

3. A factual finding of willfulness is entered against
defendants as to plaintiffs trademark claims;
4. Defendants will produce InkSystem LLC’s co­
owner, Andrey Ushakov, to be deposed in the
United States on shortened notice; and
5. Should defendants fail to comply in any way with
this order, upon application by plaintiffs and on
shortened notice, this court will issue a report and
recommendation that all of defendants’ answers
will be stricken and their defaults entered.
IT IS SO ORDERED.
DATED: June 19, 2017.

/s/
UNITED STATES MAGISTRATE JUDGE

App. 8
[ECF 112, entered on 08/03/2017]

UNITED STATES DISTRICT COURTDISTRICT OF
NEVADARENO, NEVADA
* * *

SEIKO EPSON
CORPORATION, et
al.,
Plaintiff,
vs.

3:16-CV-0524-RCJ-VPC
REPORT AND
RECOMMENDATION
OF U S. MAGISTRATE
JUDGE

INKSYSTEM LLC, et
al.,
Defendant(s).

This Report and Recommendation is made to
the Honorable Robert C. Jones, United States District
Judge. The action was referred to the undersigned
Magistrate Judge pursuant to 28 U.S.C. § 636(b)(1)(B)
and LR IB 1-4. Before the court is plaintiffs’ Seiko
Epson Corporation and Epson America, Inc.,
(“plaintiffs”) renewed motion to compel and for
terminating sanctions (ECF No. 91), regarding
defendants ART LLC, AF LLC, Inkredible LLC LLC,
Andriy Kravchuk, Artem Koshkalda, Igor Bielov, and
“defendants”).6
Vitalii
Maliuk
(collectively,
Defendants opposed (ECF No. 94) and plaintiffs
replied (ECF No. 98). The court has thoroughly
6 Defendants Inksystem LLC and Lucky Print LLC are not
subject of this motion.

App. 9
[ECF 112, entered on 08/03/2017]
reviewed the record and recommends that plaintiffs’
motion be granted.
I. PROCEDURAL HISTORY
On May 26, 2017, plaintiffs filed an emergency
motion to compel and for sanctions. (ECF No. 80.)
Plaintiffs motion was based on “defendants’ continued
and unexcused discovery failures,” such as ignoring
court orders, failing to appear in court, missing
discovery deadlines, failing to provide even basic
discovery, and generally abusing the discovery
process. (Id.at 1-5.) On June 8, 2017, this court held a
hearing on the emergency motion for sanctions. (ECF
No. 84.) The motion was granted in part and denied in
part, and defendants were ordered to provide various
discovery responses and pay $5,554.79 in attorney’s
fees and costs to plaintiffs. (ECF No. 84.)
On June 16, 2017plaintiff filed another motion
to compel and for sanctions (ECF No. 85), Plaintiffs’
motion related to depositions of defendant Kravchuk
and defendants continued, willful noncompliance with
court orders and discovery obligations. (ECF No. 85.)
Plaintiffs argued that defendants are “willfully
withholding relevant evidence which clearly
prejudices plaintiffs and supports the relief
requested,” and defendants are “simply abusing the
discovery process to delay a final adjudication.” (Id.at
6.) This court granted the motion and ordered that: 1)
defendants pay $16,146.50 to plaintiffs; 2) defendants
be precluded from seeking any offset as to damages

*±pp. 10
[ECF 112, entered on 08/03/2017]

using documents or information not disclosed or
produced; 3) a factual finding of willfulness is entered
against defendants as to plaintiffs’ trademark claims;
4) Andrey Ushakov is to be produced for deposition in
the United States on shortened notice; and 5) if
defendants fail to comply with the court’s order, the
court will issue a report and recommendation that all
of defendants’ answers be stricken and their defaults
entered. (ECF No. 88.) On June 28, 2017, plaintiffs
filed a renewed motion to compel and for terminating
sanctions due to defendants’ continued failure to
comply with this court’s prior orders. (ECF No. 91.)
Plaintiffs have accurately recounted the history
of defendants’ litigation tactics (See ECF Nos. 80, 85,
91). Defendants have repeatedly disobeyed court
orders, applicable rules, and plaintiffs’ properly
propounded discovery requests. Defendants continue
to withhold evidence directly related to the issues of
this case and have repeatedly shown their intention
to continue to violate courtx orders and ignore
discovery obligations. Plaintiffs now seek caseA •.

M

Ml

td’IIlXIlfcltlllg

M <4

mX.

y*i w* «

SfcUlULAUllO

/V* /■»

/-% 4*

0.gtU.ll»L

J

m

J •>"»

i -—**

U.CXCIiUcllItSj

Sb

1UI

X 1%

M

blltUX

continued bad faith in the face of court orders,
admonitions, and sanctions.
II. DISCUSSION AND ANALYSIS
Plaintiffs seek case terminating sanctions
based upon two alternative grounds: (l)Fed. R. Civ. P.
37(b)(2)(A)(iii)-(vi) and Local Rule IA 11-8; and (2) the
court’s inherent power to enter a default judgment to

App. 11
[ECF 112, entered on 08/03/2017]

ensure the orderly administration of justice and the
integrity of its orders. Having heard oral argument
and having reviewed all documents in the record, the
court finds such terminating sanctions appropriate.
A. Fed. R. Civ. P. 37(b) and Local Rule IA 11-8.
Fed. R. Civ. P. 37(b) and Local Rule IA 11-8
provides for sanctions where a party fails to comply
with a court order. FRCP 37(b)(2)(A)(iii)-(vi) states
that if a party disobeys a discovery order the court
may issue an order striking pleadings, staying
proceedings, dismissing the action, or rendering a
default judgment against the disobedient party. LR LA
11-8(d) states that the court may impose any and all
appropriate sanctions on a party who fails to comply
with any order of this court.
Plaintiffs argue that due to defendants’ willful
violation of numerous court orders, such as their
failure to appear in person for hearings and failure to
produce complete discovery responses and requests,
the Federal and Local Rules allow the Court to enter
terminating sanctions. (ECF No. 91 at 7.) The court
agrees that terminating sanctions are appropriate at
this time. Defendants were specifically admonished in
this court’s June 19, 2017 order, that if they again
failed to comply, this court would issue a report and
recommendation that all of defendants’ answers be
stricken and their defaults entered. (See ECF No. 88.)
Due to defendants’ repeated disobedience and failure
to comply with this court’s orders, it is appropriate to

App. 12
[ECF 112, entered on 08/03/2017]

strike defendants’ answers
judgments against them.

and

enter

default

B. The Court’s Inherent Power to Sanction.
Further, pursuant to the court’s inherent power
to sanction, dismissal is an available sanction when “a
party has engaged deliberately in deceptive practices
that undermine the integrity of judicial proceedings”
or “has willfully deceived the court and engaged in
conduct utterly inconsistent with the orderly
administration of justice.” Leon v. IDX Systems
Corp.,464 F.3d 951, 968 (9th Cir.2006), citing
Anheuser-Busch,
Inc.
v.
Natural
Beverage
Distribs.,69 F.3d 337, 348 (9th Cir.l995).The district
court is required to consider the following factors
before imposing the “harsh sanction” of dismissal: “(1)
the public's interest in the expeditious resolution of
litigation; (2) the court's need to manage its dockets;
(3) the risk of prejudice to the other party; (4) the
public policy favoring disposition of cases on their
merits; and (5) the availability of less drastic
sanctions.” Hester v. Vision Airlines, Inc., 687 F.3d
1162, 1169 (9thCir. 2012) (quotation omitted).
1. The public’s interest in the expeditious
resolution of litigation.
“Orderly and expeditious resolution of disputes
is of great importance to the rule of law... [and b]y the
same token, delay in reaching the merits ... is costly
in money, memory, manageability, and confidence in

App. 13
[ECF 112, entered on 08/03/2017]
the process.” Allen v. Bayer Corp.(In re:
Phenylpropanolamine (PPA) Prods. Liab. Litig.), 460
F.3d 1217, 1227 (9th Cir. 2006).Here, defendants’
behavior and continued failure to comply with several
court orders have greatly delayed this matter and
their behavior is inconsistent with the purpose of the
Federal Rules of Civil Procedure to provide a “just,
speedy, and inexpensive determination” of this action.
Fed. R. Civ. P. 1. This factor favors dismissal.
2. The court’s need to manage its docket
“Where a court order is violated, the first and
second factors will favor sanctions and the fourth will
cut against them.” Computer Task Group, Inc. v.
Brotby, 364 F.3d 1112, 1115 (9th Cir. 2004) citing
Payne v. Exxon Corp., 121 F.3d 503, 507 (9th Cir.
1997). The court agrees with plaintiffs’ recitation of
the myriad case management problems the court has
experienced in this proceeding, most importantly here
are defendants’ numerous failures to obey court
orders, including failure to appear for court hearings.
This factor favors dismissal.
3. The risk of prejudice to the opposing
party
Here, plaintiffs argue that defendants are not
prejudiced as they have been given numerous
opportunities to comply with this court’s orders and
continually fail to do so. Defendants actions have
substantially and unreasonably delayed this case,

App. i4

[ECF 112, entered on 08/03/2017]

such that if this case continues on the way it has,
plaintiffs will be prejudiced and continue to incur
substantial costs. Any prejudice to defendants is far
outweighed by prejudice to plaintiffs. This factor
favors dismissal.
4. The public policy favoring disposition
of cases on their merits
“Public policy favoring disposition of cases on
their merits strongly counsels against dismissal.”
Allen, 460 F.3d at 1128. While plaintiffs acknowledge
this, they also argue that the impact of this factor
should be lessened because “this case began with an
ex parte seizure order where the District Court
already found that plaintiffs were likely to succeed on
the merits.” (ECF No. 91 at 10.) Further, a
preliminary injunction, and thus a finding of
likelihood of success on the merits, has already issued
in this case, (ECF No. 33.) This factor favors
dismissal.
5. The availability of less drastic
sanctions
When considering this factor, the court must
compare the impact of dismissing the case to the
adequacy of a less drastic sanction. Malonev. U.S.
Postal Service, 833 F.2d 128, 131-32(9th Cir.
1987).The Ninth Circuit has outlined three factors to
help facilitate this analysis, which are whether the
court: “(1) explicitly discussed the alternative of lesser

App. 15
[ECF 112, entered on 08/03/2017]

sanctions and explained why it would be
inappropriate; (2) implemented lesser sanctions
before ordering the case dismissed; and (3)warned the
offending party of the possibility of dismissal.”
Computer Task Group,364 F.3d at 1116 citing
Anheuser-Busch,69 F.3d at 352.
The court has imposed increasingly more
serious sanctions against defendants over the course
of this proceeding, and defendants have continued to
engage in improper conduct. Given defendants failure
to comply with past orders, the court has no reason to
believe it will comply with future orders. Defendants
were warned that their failure to comply with this
court’s orders would result in a recommendation to
the District Court that sanctions be entered against
them. This factor favors dismissal. Given that all of
the factors weigh in favor of terminating sanctions,
the court finds that defendants’ answers should be
stricken as a sanction for their failure to comply with
this court’s orders.
III.CONCLUSION
The court concludes that the severe sanction of
dismissal is warranted in this case, as outlined herein.
The parties are advised:
1. Pursuant to 28 U.S.C. § 636(b)(1)(c) and Rule IB 32 of the Local Rules of Practice, the parties may file
specific written objections to this Report and
Recommendation within fourteen days of receipt.

App. 16
[ECF 112, entered on 08/03/2017]

These objections should be entitled “Objections to
Magistrate Judge’s Report and Recommendation”
and should be accompanied by points and
authorities for consideration by the District Court.
2. This Report and Recommendation is not an
appealable order. and any notice of appeal
pursuant to Fed. R. App. P. 4(a)(1) should not be
filed until entry of the District Court’s judgment.
IV. RECOMMENDATION
IT IS THEREFORE RECOMMENDED that
plaintiffs’ motion for case terminating sanctions (ECF
No. 91) be GRANTED.
IT IS FURTHER RECOMMENDED that
defendants ART LLC, AF LLC, INKREDIBLE LLC
LLC, Andriy Kravchuk, Artem Koshkalda, Igor
Bielov, and Vitalii Maliuk’s answers (ECF Nos. 41, 49)
be STRICKEN and their defaults entered.
DATED: August 3, 2017.

/s/
UNITED STATES MAGISTRATE JUDGE

App. 17
[ECF 160 w/o exhibits, entered on 08/22/2017]
UNITED STATES DISTRICT COURTDISTRICT OF
NEVADARENO, NEVADA
SEIKO EPSON
CORPORATION, et
al.,

Case No.: 3:16-CV-0524RCJ-VPC
ORDER

Plaintiff,
vs.
INKSYSTEM LLC, et
al.,
Defendant(s).

Before the Court is the Reports and
Recommendations of U.S. Magistrate Judge (ECF
#1121) entered on August 3, 2017, recommending that
the Court grant Plaintiffs’ Motion for Case
Terminating Sanctions (ECF No. 91) and Defendants
ART LLC, AF LLC, INKREDIBLE LLC, Andriy
Kravchuk, Artem Koshkalda, Igor Bielov, and Vitalii
Maliuk’s Answers (ECF Nos. 41, 49) be stricken and
their defaults entered. On August 16, 2017,
Defendants filed their Objections to Report and
Recommendation Regarding Motion for Summary
Judgment (ECF No. 153).
The Court has conducted it’s de novo review in
this case, has fully considered the objections of the
Plaintiff, the pleadings and memoranda of the parties

[ECF 160 w/o exhibits, entered on 08/22/2017]

and other relevant matters of record pursuant to 28
U.S.C. § 636(b)(1)(B) and Local Rule IB 3-2. The Court
determines that the Magistrate Judge’s Reports and
Recommendation (ECF #112) entered on August 3,
2017, should be ADOPTED AND ACCEPTED.
IT IS HEREBY ORDERED that Plaintiffs’
Motion for Case Terminating Sanctions (ECF No.91)
is GRANTED.
IT IS FURTHER ORDERED that Defendants
ART LLC, AF LLC, INKREDIBLE LLC, Andriy
Kravchuk, Artem Koshkalda, Igor ielov, and Vitalii
Maliuk’s Answers (ECF Nos. 41, 49) are STRICKEN
from the Docket and the Clerk of the Court shall enter
Defaults accordingly.
IT IS SO ORDERED this 22nd day of August,
2017.
/s/
ROBERT C. JONES

App. 19
[ECF 304, entered on 01/16/2018]

UNITED STATES DISTRICT COURTDISTRICT OF
NEVADARENO, NEVADA
SEIKO EPSON
CORPORATION, et
al.,
Plaintiff,
vs.

Case No.: 3:16-CV-0524RCJ-VPC

JUDGMENT
PURSUANT TO
ENTRY OF DEFAULT

INKSYSTEM LLC, et
al.,
Defendant(s).

This cause having come before this Court on the
motion of Plaintiffs Seiko Epson Corporation and
Epson America, Inc. (collectively “Plaintiffs”) for entry
of default judgment and permanent injunction
(“Motion”) against Defendants Inksystem LLC, Lucky
Print, LLC, AF LLC, ART LLC, Inkredible LLC LLC,
Andriy Kravchuk, Igor Bielov, Artem Koshkalda,
Vitalii Maliuk, Veles LLC, Alado LLC, Karine LLC,
KBF, LLC, Karine Vardanian a/k/a Karine Christ
a/k/a Karine Crist a/k/a Karine Westbrook, Vladimir
Slobodianiuk a/k/a Volodymyr Slobodianiuk a/k/a
Vladimir Westbrook, Kristina Antonova a/k/a
Krystyna Antonova a/k/a Kristy Antonova a/k/a
Krystyna Antanova a/k/a Krystyna Taryanik, and
Roman Taryanik (collectively, “Defendants”), and
Sancase LLC, Vilacet LLC, Renoca LLC, Best Deal

App. 20
[ECF 304, entered on 01/16/2018]

Cartridge, LLC, Privat Group LLC, Yava LLC and
Danalop LLC (collectively, “Koshkalda’s Companies”);
AND, the Court having read and considered the
pleadings, declarations and exhibits on file in this
matter and having reviewed such evidence as was
presented in support of Plaintiffs’ Motion;
AND,
GOOD
CAUSE
APPEARING
THEREFOR, the Court finds the following facts:
Plaintiffs are the owners of all rights in and to
trademark registrations, including, but not limited to,
the trademarks which are the subject of the
registrations listed in Exhibit A (collectively the
“Plaintiffs’ Trademarks”), attached hereto.
Plaintiffs have complied in all respects with the
laws governing trademarks and secured the exclusive
rights and privileges in and to the Plaintiffs’
Trademarks.
The appearance and other qualities of the
Plaintiffs’ Trademarks are distinctive and original.
Defendants are using Plaintiffs’ Trademarks or
marks confusingly similar to Plaintiffs’ Trademarks,
in connection with the importation, manufacture,
distribution, sale and offer for sale of counterfeit
and/or infringing ink cartridges bearing unauthorized
reproductions or substantially similar copies of
registered trademarks
owned by
Plaintiffs
(“Unauthorized Product”).

App. 21
[ECF 304, entered on 01/16/2018j

advertising,
displaying,
Defendants’
promoting, marketing, distributing, offering for sale
and selling of the Unauthorized Product was engaged
in willfully and intentionally, without leave or license
from Plaintiffs, in violation of Plaintiffs’ rights in and
to Plaintiffs’ Trademarks.
The liability of the Defendants in the abovereferenced action for their acts in violation of
Plaintiffs’ rights is knowing and willful, and as such
the Court expressly finds that there is no just reason
for delay in entering the default judgment and
permanent injunction sought herein.
The Court has previously found that Plaintiffs
have shown that proceeds from Defendants’
infringement were deposited into a large number of
bank accounts and also used to purchase valuable real
estate, among other things. Dkt.159.
The Court has also found that Plaintiffs have
shown that Defendants have and are likely to further
liquidate and dissipate assets, that they have a
history of transferring money to family members and
using shell companies to hide assets or the source of
money. Dkt.159.
The Court, as a result of Defendants’
dissipation, secreting, and hiding of assets and other
bad faith acts, granted an Order for Asset Seizure and
Impoundment against Defendants AF LLC, ART LLC,
Inkredible LLC LLC, Andriy Kravchuk, Igor Bielov,

App. 2^
[ECF 304, entered on 01/16/2018]

Artem Koshkalda and Vitalii Maliuk on August 22,
2017 (“Asset Freeze Order”), enjoining them and any
person, corporation or other entity acting in concert
with them, from further transfer or other concealment
of assets. Dkt.159. After Defendant Koshkalda, with
the assistance of co-Defendant Vladimir Westbrook,
continued to act in violation of the Court’s Asset
Freeze Order, individually, and through various shell
companies, including but not limited to Sancase LLC,
Vilacet LLC and Renoca LLC, the Court set a hearing
requiring the personal appearance of both Koshkalda
and Westbrook regarding their alleged contempt, but
they failed to appear in violation of the Court’s Order
and were found in contempt of Court. Dkt. 250
(“Contempt Order”). As a result of Koshkalda’s
continued and undisputed violation of Court Orders,
including of the Asset Freeze Order, an Amended
Asset Freeze Order was issued as against Koshkalda
and his companies as a direct result of his latest
contempt.
Therefore, based upon the foregoing facts, and
yjr\JKJU

n*

t top

uoa

\
a dt\t/o
i\£ r Juj.ru.vi.rNvjt

tpi tto tt toto/^vn
i
wjlv,

rrup

xixjjj

COURT ORDERS that this Judgment shall be and is
hereby entered in the within action as follows:
This Court has jurisdiction over the parties to
1)
this action and over the subject matter hereof
pursuant to 15U.S.C. §§1051, et seq., 28 U.S.C. §§
1331 and 1338. Service of process was properly made
on the Defendants.

App. 23
[ECF 304, entered on 01/16/2018]

Defendants are using Plaintiffs’ Trademarks or
marks confusingly similar to Plaintiffs’ Trademarks,
in connection with the importation, manufacture,
distribution, sale and offer for sale of Unauthorized
Product which infringes upon the Plaintiffs’
Trademarks.
2)

The Defendants and their agents, servants,
employees and all persons in active concert and
participation with them who receive actual notice of
the injunction are hereby restrained and enjoined
from:
3)

a)
Infringing the Plaintiffs’ Trademarks,
either directly or contributorily, in any manner,
including
generally,
but
not
limited
to,
manufacturing, reproducing, importing, advertising,
selling and/or offering for sale any unauthorized
product which features any of the Plaintiffs’
Trademarks, and, specifically:
manufacturing,
Importing,
distributing, advertising, selling and/or offering for
sale the Unauthorized Product or any other
unauthorized products which picture, reproduce, copy
or use the likenesses of or bear a substantial
similarity to any of Plaintiffs’ Trademarks;
i)

manufacturing,
Importing,
reproducing, distributing, advertising, selling and/or
offering for sale in connection thereto any
unauthorized
promotional
materials,
labels,
ii)

App. 24
[ECF 304, entered on 01/16/2018]

packaging or containers which picture, reproduce,
copy or use the likenesses of or bear a confusing
similarity to the Plaintiffs’ Trademarks;
iii)
Engaging in any conduct that
tends falsely to represent that, or is likely to confuse,
mislead or deceive purchasers, Defendants’ customers
and/or members of the public to believe, the actions of
Defendants, the counterfeit products and related
merchandise manufactured, sold and/or offered for
sale by Defendants, or Defendants themselves are
connected with Plaintiffs, are sponsored, approved or
licensed by Plaintiffs, or are affiliated with Plaintiffs;
iv)
Affixing, applying, annexing or
using in connection with the importation,
manufacture, distribution, advertising, sale and/or
offer for sale or other use of any goods or services, a
false description or representation, including words or
other symbols, tending to falsely describe or represent
such goods as being those of Plaintiffs.
4)
Defendants, jointly and severally, shall pay
damages to Plaintiffs in the sum of Twelve Million
Dollars ($12,000,000.00).
5)
The following Defendants shall also pay all
sanctions issued against them in these proceedings, as
follows: Dkts. 88 (Kravchuk: $16,146.50), 137
(Bielov/AF LLC, jointly and severally: $6,173.65,
Maliuk/Inkredible LLC LLC, jointly and severally:
$8,898.45), and any sanctions entered pursuant to

App. 25
[ECF 304, entered on 01/16/2018]
Dkt. 175.The obligations under this Paragraph 5 are
separate and distinct from the obligations under
Paragraph 4 above, and satisfaction of one shall not
constitute satisfaction of the other.
All amounts described in Paragraphs 4 and 5 of
6)
this Judgment shall bear interest pursuant to 28
U.S.C. § 1961(a).
The items seized and currently stored pursuant
7)
to the Temporary Restraining Order and Order for
Seizure and Impoundment entered on September 13,
2017 [Dkt.9], and the Preliminary Injunction entered
on October21, 2017[Dkt. 33], are transferred and
released to Plaintiffs immediately for destruction or
other disposition. Defendants are entitled to no credit
against the amounts due under this Judgment for
such items.
Title and ownership in the $314,657.47and any
8)
other cash assets frozen by the Temporary
Restraining Order; Order For Asset Seizure And
Impoundment; Order To Show Cause Re Issuance Of
Pre-Judgment Asset Freeze entered on July 31,
2017 [Dkt. 105-106], the Order for Asset Seizure and
Impoundment entered on August 22, 2017[Dkt. 109],
the Order re Contempt as to Artem Koshkalda and
Vladimir Westbrook entered on October 27, 2017
[Dkt. 250], and the Amended Order for Asset Seizure
and Impoundment entered on October 27, 2017 [Dkt.
251], including but not limited to those assets
identified in the attached Exhibit B to this Judgment,

App. 26
[ECF 304, entered on 01/16/2018]

are Ordered to be immediately assigned or otherwise
transferred to Plaintiffs or accounts identified by
Plaintiffs, the value of such assets to be deducted
against amounts owed pursuant to this Order.
9)
Plaintiffs may enforce this Judgment against
Defendants’ and/or Koshkalda’s Companies’ real
estate assets, including but not limited to those
identified in the attached Exhibit C.
10)
Effective immediately and until the Judgment
is satisfied in full, Defendants, any person acting in
concert with them, whether acting directly or through
any entity, corporation, subsidiary, division, affiliate
or other device, or any third-party service provider
who is served with a copy of this Order or has
knowledge of this Order by personal service or
otherwise, are enjoined and restrained from:
Transferring, converting, encumbering,
a)
selling, concealing, dissipating, disbursing, assigning,
spending, withdrawing, perfecting a security interest
in, or otherwise disposing of any funds, real or
nersonal nronertv. accounts, contracts, or other
assets, wherever located, including outside the United
States, including but in no way limited to those
accounts and assets identified in Exhibits B and C,
that include, consist of in any amount, were derived
from, or were purchased with any profits, proceeds or
monies received from the sale of any unauthorized
Epson branded ink cartridge, and are:
Jk.

X

X

%/

'

App. 27
[ECF 304, entered on 01/16/2018]
owned or controlled by, or in the
actual or constructive possession of any Defendant; or

i)

owned or controlled by, or held for
the benefit of, directly or indirectly, any Defendant, in
whole or in part; or

ii)

iii)
owned or controlled by, or in the
actual or constructive possession of or otherwise held
for the benefit of, any corporation, partnership, or
other entity directly or indirectly owned, managed, or
controlled by any of the Defendants (including but not
limited to Koshkalda’s Companies), including, but
notlimited to, any assets held by, for, or subject to
access by, any of the Defendants at any bank or
savings and loan institution, or with any brokerdealer, escrow agent, title company, or other financial
institution or depository of any kind.
b)
Opening or causing to be opened any new
accounts or safe deposit boxes titled in the name of
any Defendant, or subject to access by any Defendant,
that will receive any profits, proceeds or monies
received from the sale of any unauthorized Epson
branded ink cartridge;
Obtaining a personal or secured loan
encumbering the asset of any Defendant, or subject to
access by any Defendant, where the asset consists of
in any amount, was derived from, or was purchased
with any profits, proceeds or monies received from the
c)

App. 28
[EOF 304, entered on 01/16/2018]

sale of any unauthorized
cartridge;

Epson branded ink

d)
Incurring liens or other encumbrances
on real property, personal property, or other assets in
the name, singly or jointly, of any Defendant or of any
corporation, partnership, or other entity directly or
indirectly owned, managed, or controlled by any
Defendant, where the asset consists of in any amount,
was derived from, or was purchased with any profits,
proceeds or monies received from the sale of any
unauthorized Epson branded ink cartridge; or
\

Incurring charges or cash advances on
e)
any credit card or prepaid debit, credit or other bank
card, issued in the name, singly or jointly, of any
Defendant or any corporation, partnership, or other
entity directly or indirectly owned, managed, or
controlled by any Defendant, where the asset consists
of in any amount, was derived from, or was purchased
with any profits, proceeds or monies received from the
sale of any unauthorized Epson branded ink
cartridge.
11)
The bond filed on September 15, 2017, as
Dkt. 11 is hereby exonerated.
12)
This Judgment shall be deemed to have been
served upon Defendants at the time of its execution by
the Court and entry by the Clerk of the Court. 13)The
Court finds there is no just reason for delay in
entering this Judgment and, pursuant to Rule 54(a) of

App, 29
[ECF 304, entered on 01/16/2018]

the Federal Rules of Civil Procedure, the Court directs
immediate entry of this Judgment against
Defendants.
14)
The Asset Freeze Order [Dkt. 159], the
Contempt Order [Dkt.250], and the Amended Asset
Freeze Order [Dkt.251], shall remain in full force and
effect through any period of stay or applicable non­
15)The
enforcement period of this Judgment,
following terms of the Asset Freeze Order [Dkt. 159],
the Contempt Order [Dkt.250], and the Amended
Asset Freeze Order [Dkt. 251], shall be incorporated
into this Judgment and will survive the entry of this
Judgment:
Plaintiffs are given leave to immediately
a)
attach and execute upon any assets owned or
controlled by, or in the actual or constructive
possession of or otherwise held for the benefit of, any
corporation, partnership, or other entity directly or
indirectly owned, managed, or controlled by
Defendant Koshkalda or one of his companies
(including but not limited to Sancase LLC, Vilacet
LLC, and Renoca LLC) including but not limited to
those assets identified in Exhibit A and B. Plaintiffs
have leave to submit proposed writs or other orders as
may be necessary to attach and/or execute upon any
assets pursuant to this Judgment;
Koshkalda and those acting in concert
b)
with him who are subject to the jurisdiction of this
Court, including but not limited to Andriy Kravchuk

App. 30
[ECF 304, entered on 01/16/2018]

and Vladimir Westbrook, are ordered to appear for
examination under oath before Magistrate Judge
Cooke, or another special master as the Court sees fit,
at a date and time to be set by Magistrate Judge
Cooke or special master within 28 days of the entry of
this Order, to account for all of Koshkalda’s assets and
recent transactions, including the identification and
whereabouts of all of the proceeds from real estate
transactions during the pendency of this action;
Koshkalda and those acting in concert
c)
with him who are subject to the jurisdiction of this
Court, including but not limited to Andriy Kravchuk
and Vladimir Westbrook, are further ordered to
produce, within ten days following this order, all
documents for all of Koshkalda’s assets and recent
transactions,
including
all
documents
the
identification and whereabouts of all of the proceeds
from real estate transactions during the pendency of
this action;
Plaintiffs are given leave to undertake
d)
discovery, including Debtor’s examinations and thirdparty discovery, regarding the assets and obligations
of Defendants and those acting in concert with them;
Koshkalda, ART LLC, and Westbrook
shall deposit into a frozen account all proceeds from
any real estate transaction completed since August 1,
2017; and
e)

App. 31
[ECF 304, entered on 01/16/2018]
f)
Defendants’
bank
accounts
are
impounded, as provided in Paragraph 14 of the
Amended Seizure Order.
16) The Court shall retain jurisdiction of this
action, specifically including any Contempt and
Sanctions Orders entered, to entertain such further
proceedings and to enter such further orders as may
be necessary or appropriate to implement and enforce
the provisions of this Judgment and any orders of this
Court.

IT IS SO ORDERED.
DEBRA K. KEMPI
CLERK
/s/
(by) DEPUTY CLERK

January 16. 2018
DATE

App. 32
12/27/2019, Memorandum By 9th Circuit
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
SEIKO EPSON
CORPORATION, et al.,
Plaintiffs-Appellees,

No. 18-15124
DC No. 3:16 cv-0524
RCJ
MEMORANDUM

vs.
ARTEM KOSHKALDA;
ART, LLC,
Defendants-Appellants.

SEIKO EPSON
CORPORATION, et al.,
Plaintiffs-Appellees,
vs.
ANDRIY KRAVCHUK;
IGOR BIELOV; KBF, LLC;
VLADIMIR
SLOBODIANIUK, AKA
Volodymyr Slobodianiuk,
AKA Vladimir Westbrook;
KRISTINA ANTONOVA,
AKA Krystyna Antanova,

No. 18-15245
DC No. 3:16 cv-0524
RCJ

App. 33
12/27/2019, Memorandum By 9th Circuit

AKA Kristy Antonova, AKA
Krystyna Antonova, AKA
Krystyna Taryanik;
VITALII MALIUK;
ROMANTARYANIK,
Defendants-Appellants.

Appeals from the United States District Court
for the District of Nevada
Robert Clive Jones, District Judge, Presiding
Argued and Submitted November 13, 2019
San Francisco, California

Before:

THOMAS, Chief Judge, and TASHIMA
and WARDLAW, Circuit Judges.

Appellants appeal the default judgment
entered against them on Seiko Epson Corporation’s
(“Epson”) claims of trademark counterfeiting,
trademark infringement, and related claims following
the entry of default against each appellant. We have
jurisdiction under 28 U.S.C. § 1291, and we affirm.
The district court did not abuse its
1.
discretion by imposing case terminating sanctions
against appellants Artem Koshkalda, ART LLC,
Vitalii Maliuk, Andriy Kravchuk and Igor Bielov. See
Conn. Gen. Lifelns. Co. v. Newlmages of Beverly Hills,

App. 34
12/27/2019, Memorandum By 9th Circuit

482 F.3d 1091, 1096 (9th Cir. 2007). Koshkalda and
ARTLLC failed to produce discovery, failed to appear
in court and violated various court orders. Maliuk
failed to provide useful information as a Fed. R. Civ.
P.30(b)(6) deponent and failed to appear in court.
Kravchuk failed to produce discovery, failed to appear
in court, failed to appear for two separate depositions
and failed to pay sanctions awarded against him.
Bielov failed to produce discovery, failed to appear in
court and failed to appear for a deposition. The
magistrate judge commented that she had “never
encountered th [is] level of obstructionism and failure
to respond to the most basic discovery requests” in
herl8 years as a judge. The appellants were warned
repeatedly of the possibility of case terminating
sanctions, yet continued to disregard discovery
obligations and court orders. Although the appellants
other than Maliuk point out that they were not subject
to the Junel9, 2017, sanctions order that preceded the
entry of case terminating sanctions, this is irrelevant,
because the case terminating sanctions were entered
as a result of the appellants’ overall conduct over
several months.
The district court did not abuse its
discretion by imposing earlier sanctions on Maliuk
and Kravchuk. See Conn. Gen. Life Ins. Co., 482 F.3d
atl096. A corporate officer can be sanctioned under
Fed. R. Civ. P. 37(b) when he is responsible for a
corporate defendant’s failure to produce discovery
2.

App. 35
12/27/2019, Memorandum By 9th Circuit

responses. See David v. Hooker, Ltd., 560 F.2d 412,
415, 420-21 (9th Cir. 1977).
The default judgments entered against
3.
appellants Vladimir Slobodianiuk, Kristina Antonova
and Roman Taryanik are not void for lack of personal
jurisdiction due to insufficient service of process. See
SEC v. InternetSols. for Bus. Inc., 509 F.3d 1161,1165
(9th Cir. 2007) (reviewing de novo). Because “a signed
return of service constitutes prima facie evidence of
valid service,” the burden is on the appellants to show
“by strong and convincing evidence” that service was
not valid. Id. at 1166. Here, the appellants have
presented no evidence, let alone strong and convincing
evidence, that the places where service occurred were
not their “dwelling[s] or usual place[s] of abode. ”Fed.
R. Civ. P. 4(e)(2)(B). In the cases of Antonova and
Taryanik, the mere fact that the complaint alleges a
residence in Santa Clara and they were served in San
Jose does not constitute strong and convincing
evidence of invalid service.
Appellant KBF, LLC, does not dispute
4.
Epson’s contention that it had actual notice of the
proceedings, through service of its registered agent,
Slobodianiuk. Accordingly, we decline to exercise our
discretion to reach this issue raised for the first time
on appeal. See Bolker v. Comm’r, 760 F.2d 1039,1042
(9th Cir. 1985).
The district court did not err by
5.
concluding that the appellants’ trademark violations

App. 36
12/27/2019, Memorandum By 9th Circuit

were willful. The operative second amended complaint
alleged willful infringement and these allegations
were deemed true by virtue of the appellants’ defaults.
See Derek Andrew, Inc. u. Poof Apparel Corp., 528 F.3d
696, 702 (9th Cir. 2008).
The appellants are correct in arguing
that the averments of the complaint regarding the
amount of damages were not deemed true by virtue of
the appellants’ defaults. See Fed. R. Civ. P. 8(b)(6);
Geddes v. United Fin. Grp., 559F.2d 557, 560 (9th Cir.
1977). Contrary to the appellants’ assertion, however,
the district court did not rely on the averments of the
complaint. In the district court, Epson presented
undisputed expert evidence showing that the
defendants’ unauthorized sales of Epson printer
cartridges generated revenue of at least $14.4million.
In light of this evidence, the district court’s award of
$12 million in statutory damages was within the
court’s discretion. See 15 U.S.C. § 1117(c)(2); cf.
Columbia Pictures Television, Inc. v. Krypton Broad,
of Birmingham, Inc., 259F.3d 1186, 1194 (9th Cir.
onn 1 \ //~i_______ i „.i_ j.
A
/“Tf*
statutory damages are
akjkji.) vv-'uP3'rASJLlt -rYCl7 V
elected, the court has wide discretion in determining
the amount of statutory damages to be awarded,
constrained only by the specified maxima and
minima.’’(alteration adopted and internal quotation
marks omitted)).
6.

7.
Finally, the district court did not abuse
its discretion by awarding statutory damages for the

App. 37
12/27/2019, Memorandum By 9th Circuit

use of counterfeit marks for printer ink as a class 2
good. Although gray market goods generally are not
considered counterfeit, the appellants here did much
more than purchase genuine Epson cartridges abroad
and resell them in the domestic U.S. market. They
also repackaged, reprogrammed, and relabeled the
cartridges, changed “Best Before” dates, and degraded
the quality of the cartridges and ink before selling the
cartridges to unsuspecting customers. See2 Anne
Gilson LaLaonde, Gilson on Trademarks §
5.19[3] [c] [ii], at 5-229(Matthew Bender 2019) (“If a
gray market product is repackaged in a way that will
deceive consumers, that product is also counterfeit.”).
AFFIRMED.

App. 38
02/18/2020, En Banc Panel Rehearing

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT

SEIKO EPSON
CORPORATION, et al.,
Plaintiffs-Appellees,
vs.

No. 18-15124
DC No. 3:16 cv-0524
RCJD Nev., Reno
ORDER

INKSYSTEM LLC, et al.
Defendants-Appellants.

Before:

THOMAS, Chief Circuit Judge, and
TASHIMA and WARDLAW, Circuit
Judges.

The panel has voted to deny the petition for
panel rehearing. Chief Judge Thomas and Judge
W7ovA
1 afr\
rlfko
■nofifiAn fnv» 1
vnl^naymn1
TTUJ. ViAUTT
» VVV
\J\J
U.OA1J
^/Vi/lUAV/11 JLV/A
V--1AVUA Aii^

Ks I V

banc and Judge Tashima so recommends. The full
court has been advised of the petition for rehearing en
banc and no judge of the court has requested a vote on
en banc rehearing. See Fed. R. App. P. 35(f). The
petition for panel rehearing and the petition for
rehearing en banc are denied.

